September 10, 2021
Scott S. Harris, Esq.
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Johnson & Johnson v. Mississippi ex rel. Lynn Fitch, Attorney General
of Mississippi, No. 21-348

Dear Mr. Harris:
I am counsel of record for respondent in the above-captioned case and am
writing to request a 30-day extension of time in which to file a response to the petition
for a writ of certiorari. The petition was placed on this Court’s docket on September
3, 2021, and a response to the petition is currently due on October 4, 2021. In
accordance with Supreme Court Rule 30.4, respondent respectfully requests a 30-day
extension of time, to and including November 3, 2021, in which to file a response to
the petition. The additional time is warranted because, in the upcoming weeks, I have
significant professional obligations, including a reply brief on the merits in Dobbs v.
Jackson Women’s Health Organization, No. 19-1392. I have conferred with counsel of
record for petitioners, who consents to this request for a 30-day extension of time.
Very truly yours,
/s Scott G. Stewart
Scott G. Stewart
cc:

E. Joshua Rosenkranz
Counsel for Petitioners

550 HIGH STREET • P.O. BOX 220 • JACKSON, MS 39205-0220
TELEPHONE (601) 359-3860 • FAX (601) 359-2003

